No. 20-5279
INTHE

~upreme

QJ:ourt of tbe Wntteb ~tate~

WILLIAM DALE WOODEN,

v.

Petitioner,

UNITED STATES OF AMERICA,

Respondent.
On Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

BRIEF FOR AMICUS CURIAE
THE NATIONAL ASSOCIATION OF
CRIMINAL DEFENSE LAWYERS
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
6, 726 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 10, 2021.

